                                                NATIONAL SCIENCE FOUNDATION
                                                 OFFICE OF INSPECTOR GENERAL
                                                   OFFICE OF INVESTIGATIONS

                                          CLOSEOUT MEMORANDUM

Case Number: 110070033                                                                     Page 1 of 1



        This investigation initiated from a proactive review 1 of institutions that received funding to
        provide scholarship payments under the S-STEM program. We identified an organization2 for
        further review due to a lack of reporting on student performance and indications students did not
        meet eligibility requirements for scholarship payments under the award conditions.

        We substantiated that the organization provided scholarship payments to individuals who did not
        meet award eligibility requirements relating to financial need and course enrollment. The
        organization returned $98,500 to NSF as a result of the incorrect scholarship payments and
        implemented new policies to confirm student eligibility and track scholarship payments.
        Accordingly, this investigation is closed.




NSF OIG Form 2 (11102)
